Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented
Policing Services Grants to the
Peoria, Illinois Police Department

GR-50-01-007
August 31, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Peoria, Illinois Police Department (Peoria PD).  The purpose of the grants is to enhance community policing.  The Peoria PD was awarded a total of $2,620,302 to hire 29 entry level sworn police officers and redeploy the equivalent of 17.8 existing full-time police officers from administrative duties to community policing. 1
We reviewed the Peoria PD's compliance with seven essential grant conditions.  We found that the grantee was in compliance with the budgeting and hiring of officers, providing matching funds, reimbursement requests, retention efforts, and community policing.  However, we noted weaknesses in the tracking of police officer redeployment, resulting in $445,302 in questioned costs.

Our results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 





Footnote

The Peoria PD was awarded $600,000 under the Phase I program, $1,575,000 under the Universal Hiring Program (UHP), and $445,302 under the Making Officer Redeployment Effective program (MORE).  We did not include the Phase I grant in our audit because it ended in March 1998 and our audit of the UHP grants did not reveal significant deficiencies.  As the baseline number of officers was established during the Phase I grant, we included those officer positions in our analysis of budgeting for and hiring of officers.